No.

IN THE
SUPREME COURT of THE UNITED STATES

g

MARCUS SIMPSON- PETITIONER
vs.

THE HAMILTON COUNTY COMMON PLEAS COURT,'
THE HONORABLE JUDGE ROBERT H. GORMAN RESPONDENT.

ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME COURT OF OHIO

Marcus Simpson Pro Se
781 Villas Circle
Cincinnati, Ohio 45215
(513)554-1263

filed
AUG 1 0 2020

Preface:

An alleged victim commits

perjury

initiating aggravated robbery

criminal

proceeding’s in the states courts against a innocent person. That causes the innocent person to be
arrested for then indicted on the aggravated robbery charge, put thru hearings, then trial by the court
found guilty of the charged offense and ordered incarcerated pursuant to the trial courts judgment.
Thereafter, the now convicted (but innocent), person attacks the judgment collaterally attempting
to vacate it, setting forth the illegally withheld and omitted evidence that proves there actual
innocence, and proves the illegal use of perjury by-way of the alleged victim own recantation
conceding in open court the aggravated robbery was not committed or even attempted. But the
State’s Courts refuses to adjudicate the merits.

QUESTION’S PRESENTED
Whether perjury has amounted to and causes one or both. The judicial usurpation of power or
abuse of discretion by the trial court, therefore mandamus (Lie’s).

i

LIST OF PARITES
[X] All parties do not appear in the caption of the case on the cover page. A list of all parties to the
proceeding in the court whose judgment is the subject of this petition is as follows:
Marcus Simpson
781 Villas Circle
Cincinnati, Ohio 45215
Petitioner, pro se,.

The Hamilton County Court of Common Pleas.
The office of: The Honorable (Judge), Robert H. Gorman (Retired).
1000 Court and Main Streets
Cincinnati, Ohio 45202
Respondent,
Mr. Joseph T. Deters (0012084P)
Hamilton County Prosecuting Attorney
230 East Ninth Street, Suite 4000
Cincinnati, Ohio 45202
Counsel for Respondent

RELATED CASES
NONE

ii

TABLE OF CONTENTS
Page
OPINIONS BELOW

1.

JURISDICTION

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3-4,5

STATEMENT OF THE CASE

6,7.8.

REASONS FOR GRANTING THE PETITION

9,10,11

CONCLUSION

12.

INDEX TO APPENDICES
APPENDIX A. Decision Ohio Supreme Court #2020-0251. The State of Ohio ex rel Marcus
Simpson v. Hamilton County Court of Common Pleas et, al ‘Entry May 13th 2020’
APPENDIX B. Decision Hamilton County Common Pleas Court #B-8301629. State of Ohio v.
Marcus Simpson ‘Judgment Entry’ May 24th 1984.
APPENDIX C. Decision Ohio Supreme Court #2020-0251. The State of Ohio ex rel Marcus Simpson
v. Hamilton County Court of Common Pleas et al. Rehearing denied July 21st 2020
APPENDIX D. Decision of Ohio First District Court of Appeals. State of Ohio v. Marcus Simpson
#C-020698. ‘Judgment Entry June 11th 2003.
APPENDIX E. Decision of Ohio Supreme Court #03-1216 State of Ohio v. Marcus Simpson ‘Entry
Sept. 24th 2003’.
APPENDIX F. Decision of Hamilton County Court of Common Pleas #B-8301629 State of Ohio v.
Marcus Simpson Entry Sept. 23rd 2005.
APPENDIX G. Decision of Ohio First District Court of Appeals #C-050798. State of Ohio v. Marcus
Simpson ‘Judgment Entry July 26, 2006’.
APPENDIX H. Decision of Ohio Supreme Court #06-1658 State of Ohio v. Marcus Simpson ‘Entry
Nov. 29th 2006
APPENDIX I. Decision of Ohio First District Court of Appeals #C-080473 State of Ohio ex rel
Marcus Simpson v. The Honorable Judge Ethna M. Cooper ‘Entry July 23rd 2008

tjl

APPENDIX J. Decision of Ohio Supreme Court #2008-1712 State of Ohio ex rel Marcus Simpson
v. The Honorable Judge Ethan M. Cooper ‘Judgment Entry Dec 2nd 2008’.
APPENDIX K. Decision of Ohio Supreme Court #2008-1217 State ex rel Marcus Simpson v. Cooper
‘Judgment Dec 2nd 2008’
APPENDIX L. Decision of Ohio Supreme Court #2012-0501 State of Ohio ex rel Marcus Simpson v.
Honorable Judge Ethan M Cooper et al. “Entry May 23rd 2012’
APPENDIX M. Decision of Hamilton County Court of Common Pleas #B-8301629 State of Ohio v.
Marcus Simpson ‘Entry Nov. 18* 2015.’
APPENDIX N. Decision of Ohio First District Court of Appeals #C-150740 State of Ohio ex rel
Marcus Simpson v. Hon. Ethna Cooper ‘Judgment Entry June 28th 2017’
APPENDIX O Decision of Ohio First District Court of Appeals #C-170606 State of Ohio ex rel
Marcus Simpson v. Honorable Judge Ethna Copper ‘Entry Dec 5th 2017’
APPENDIX P. Decision of Ohio Supreme Court #2018-0215 State of Ohio ex rel Simpson v. Cooper
‘Judgment October 10th 2018’
APPENDIX Q. The Supreme Court of Ohio #2019-0755 The State of Ohio ex rel Marcus Simpson
v. the Hamilton County Common Pleas Denied Aug 21st 2019
APPENDIX R. The Supreme Court of The United States, Docket # 03-7577 In Re Marcus Simpson
v. Ohio Denied January 26th 2004
APPENDIX S The Supreme Court of The United States Docket # 18-7790 Marcus Simpson v. Ethna
Cooper, Judge Court of Common Pleas, Hamilton County, Ohio. Denied March 18th 2019. Rehearing
denied May 13th 2019
APPENDIX T. The Supreme Court of The United States Docket #19-6580 In Re Marcus Simpson,
Denied January 13th 2020
APPENDIX #1 Complaint. APPENDIX #2 Preliminary Hearing Transcript. APPENDIX #3
Indictment APPENDIX #4 Trial Transcripts.

iv

TABLE OF AUTHORITIES CITED

PAGE

CASES
Kerr vs. U.S. Dist. Court for Northern Dist. of California, 96 S, Ct. 2119 (1976).

9

Will vs. United States 389 U.S. 90, 95 (1967).

9

Will vs. Calvert Fire Insurance Co. 437 U.S. 655, 662, 98 S. Ct. 2552 (1978)

9

Schlaeenhaufv. Holder, 379 U.S. 104, 111.

9

Mallard v. U.S Dist. Court for S. Dist. OfIowa, 490 U.S. 296, 309 (1989).

9

Mitchum v. foster. 407 U.S. 225 240 (1972),

9

Anderson v. City ofBessemer City, N.C. 472 U.S. 564, 557 (1985).
State v. Simpson. 1st Dist. Hamilton No. C-840420,1985 WL 6728 (Apr. 3, 1985).

10.
7.

STATUTES AND RULES
Ohio Revised Code Title
2921.11

5.

OTHER

v

IN THE
SUPREME COURT of THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW
[X] For cases from State of Ohio:
The opinion of: The Ohio Supreme Court appears at Appendix ’A’ to the petition is [X] not
reported: State ex rel Simpson v. The Hamilton County Common Pleas et al. 2020-0hio-2815
judgment entered May 13th 2020
The Judgment of. The Hamilton County Common Pleas Court. The office of: The Honorable
Judge Robert H. Gorman (retired) The matter of: The State of Ohio v Marcus Simpson Case No#
B8301629 judgment entered May 24th 1984 appears at Appendix ’B’ to the petition and is [X]
unpublished.

1.

JURISDICTION
[X] For cases from State of Ohio
The date on which the Ohio Supreme Court decided the case was May 13th 2020. A timely
motion for rehearing was thereafter denied by the Ohio Supreme Court on July 21st 2020. a copy of the
order denying rehearing appears at Appendix ‘C.’ and is [X] unpublished 2020-0hio-3712
The jurisdiction of this Court is invoked under 28 U.S.C. section 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Constitution Article VI.
All Debts contracted and Engagements entered into, before the Adoption of this Constitution,
shall be as valid against the United States under this Constitution, as under the Confederation. This
Constitution and the Laws of the United States which shall be made in Pursuance thereof; and all
Treaties made, or which shall be made, under the Authority of the United States, shall be the supreme
Law of the Land; and the Judges in every State shall be bound thereby, any Thing in the Constitution
or Laws of any State to the Contrary notwithstanding. The Senators and Representatives before
mentioned, and the Members of the several State Legislatures, and all executive and judicial Officers,
both of the United States and the several States, shall be bound by Oath or Affirmation, to support this
Constitution; but no religious Test shall ever be required as a Qualification to any Office or public
Trust under the United States.
Constitutional Amendment I.
Congress shall make no law respecting an establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech, or of the press. Or the right of the people
peaceably assemble, and to petition the Government for a redress of grievances.
Constitutional Amendment II.
A well regulated Militia, being necessary to the security of a free State, the right of the people to
keep and bear Arms, shall not be infringed.
Constitutional Amendment IV.
The right of the people to be secure in their persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be violated, and no Warrants shall issue, but upon
probable cause, supported by Oath or affirmation, and particularly describing the place to be
searched, and the person or things to be seized.
Constitutional Amendment V.
No person shall be held to answer for a capital, or otherwise infamous crime unless on a
presentment or indictment of a Grand Jury, except in cased arising in the land or naval forces, or in the
Militia, when in actual service in time of War or public danger; nor shall any person be subject for the
same offence to be twice put in jeopardy of life or limb; nor shall be compelled in any criminal case to
be a witness against himself, nor be deprived of life, liberty, or property, without due process of law;
nor shall private property be taken for public use, without just compensation.

3

Constitutional Amendment VIII.
Excessive bail shall not be required, nor excessive fines imposed, nor cruel and unusual
punishments inflicted..
Constitutional Amendment IX
The enumeration in the Constitution, of certain rights, shall not be construed to deny or disparage
others retained by the people.
Constitutional Amendment X.
The powers not delegated to the United States by the Constitution, nor prohibited by it to the
States, are reserved to the States respectively, or to the people.
Constitutional Amendment XIII.
Section 1. Neither slavery nor involuntary servitude, except as a punishment for crime whereof
the party shall have been duly convicted, shall exist within the United States, or place subject to their
jurisdiction. Section 2. Congress shall have power to enforce this article by appropriate legislation.
Constitutional Amendment XIV.
Section 1. All persons bom or naturalized in the United States, and subject to the jurisdiction
there of, are citizens of the United States and of the State wherein they reside. No State shall make or
enforce any law which shall abridge the privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property, without due process of law; nor deny to
any person within its jurisdiction the equal protection under law.
Ohio Constitution Article 1 Bill of Rights, Section 1.16 and 1.20
Section 1.16: Redress in Courts; Due Course of Law
All courts shall be open, and every person, for an injury done him in his land, goods, person, or
reputation, shall have remedy by due course of law, and shall have justice administered without
denial or delay. Suits may be brought against the state, in such courts and in such manner, as may be
provided by law.
Section 1.20: Powers Reserved to the people.
This enumeration of rights shall not be construed to impair or deny others retained by the people,
and all powers, not therein delegated, remain with the people.

V

Ohio Statutory Law
Ohio Revised Code Title [29] XXIX Crimes -Procedure Chapter 2921: Offenses Against
Justice and Public Administration.
Perjury 2921.11
[A] No person, in any official proceeding, shall knowingly make a false statement under oath or
affirmation, or knowingly swear or affirm the truth of a false statement previously made, when either
statement is material.
[B] A falsification is material regardless of its admissibility in evidence, if it can effect the course
or outcome of the proceeding. It is no defense to a charge under this section that the offender
mistakenly believed a falsification to be immaterial.
[C] It is no defense to a charge under this section that the oath or affirmation was administered or
taken in an irregular manner.
[D] Where contradictory statements relating to the same material fact are made by the offender
under oath or affirmation and within the period of the statute of limitations for perjury, it is not
necessary for the prosecution to prove which statement was false, but only that one or the other was
false.
[E] No person shall be convicted of a violation of this section where proof of falsity rests solely
upon contradiction by testimony of one person other then the defendant.
[F] Whoever violates this section is guilty of perjury, a felony of the third degree

3

STATEMENT OF THE CASE
1). On April 14th , 1983 in the Hamilton County Municipal Court, case number 83CRA8013
being first duly cautioned and sworn, Mr. Brunkel filed a ‘complaint’ that instituted the charged of
aggravated robbery pursuant to R.C. Sec. 2911.01 against petitioner with the filing of a complaint,
basing this on and specifically alleging petitioner

“While attempting” a theft offense had on or

about his person a deadly weapon to wit a knife and [his] Mr. Brunkel’s “ recovery ofproperty”.
This caused petitioner’s arrest. Appendix # (1).
2)

Mr. Brunkel did not allege use or the attempted use of a weapon nor the infliction or

attempted infliction of serious physical harm, nor any physical contact with or without a weapon, nor
the threatened use or attempted threatened use of a weapon or fleeing thereafter.
3).

On April 21st, 1983, in the Hamilton County Municipal Court case number 83CRA8013 at

petitioner’s Preliminary Hearing, being first duly cautioned and sworn, Mr. Brunkel was asked if
petitioner had taken anything from him. Mr. Brunkel replied, “ No” Appendix # (2) lines 10-11.
4).

On May 19th , 1983, the Hamilton County Grand Jury returned a indictment case number

B8301629 charging petitioner with the offense of aggravated robbery in violation of R.C. Sec.
2911.01. The Grand Jury specifically charged petitioner with “ THEFT OF UNITED STATES

CURRENCY FROM JOEY BRUNKEL had ON OR ABOUT HIS PERSON A DEADLY WEAPON,
to-wit: A KNIFE, in violation of Section 2911.01 of the Ohio Revised Code, and against the peace and
dignity of the State of Ohio” Appendix #( 3 ).
5). The Grand Jury did not find or charge Petitioner with attempted aggravated robbery. The
Grand Jury did not find or charge petitioner with use or the attempted use of a weapon, nor the
infliction or attempted infliction of serious physical harm. The Grand Jury did not find or charge
petitioner with any physical contact with or without a weapon nor the threatened use of or attempted

threatened use of a weapon or with fleeing thereafter.
6).

On April 23rd 1984 in The Hamilton County Court of Common Pleas, case number

B8301629, at petitioner’s bench trial before The Honorable (Judge), Robert H. Gorman. Mr.
Brunkel being first duly cautioned and sworn, was asked if petitioner had “attempted to take his
money.”. Mr. Brunkel replied ‘Wo”. Appendix #(4).
7).

The Complaint and Preliminary Hearing Transcript’s were illegally withheld and omitted

from the records by the County Prosecuting Attorney.
8). On that same day April 23rd 1984, at the end of the States case, petitioner’s motioned for a
judgment of acquittal. The Court overrule the same. Appendix #(5)
9).

On that same day April 23rd 1984, at the end of the trial, the court found the case to be “

strictly one of credibility” and found “ There is no question in my mind that the Brunkel’s are telling
the truth and that what happened on the evening in question are exactly the fasts as they occurred.
Therefore, I am convinced beyond a reasonable doubt that the defendant is guilty as charged”
.Appendix #(6).
10). On the 25th day of May 1984, petitioner was sentenced by the Honorable Judge Robert H.
Gorman, to the Ohio State Max Penitentiary (Columbus Ohio) for a term of five (5) to twenty-five (25)
years [Appx. ‘B’ Judgment Entry ]. *
11). The Court of Appeals for the First Appellant District, affirmed the conviction. State v.
Simpson, 1st Dist. Hamilton No. C-840420, 1985 WL 6728 (Apr. 3,1985).
12).

Petitioner requested review of his conviction in the Oho Supreme Court, which was denied

1985.
13).

Petitioner while in some form of custody, filed habeas corpus in the States Courts and

Federal District Court which was denied and the Sixth Circuit Court of Appeals affirmed.

*7

14). In 1986 petitioner using the only available avenues for relief and introducing the ‘ Illegally
Withheld and Omitted,’ Clear Exculpatory

Evidence that Proves his Actual Innocence and the

Constitutional and Statutory Violation and acts that caused his illegal conviction just as set forth here,
filed in the states trial court the first of what will be over the years five petitions for post-conviction
thereafter five mandamus

attacks under state statute seeking to vacate the judgment at issue.

Appendix. K, M.& P. Clearly demonstrates just some of the Courts arbitrary and capricious decision
making denying justice over the decades. The States Trial, Intermediate Appellant and Supreme
Courts Outright Refuses to adjudicate the Merit as set out or give petitioner a hearing on the Merits.
Let the States Courts Own Judgments and Entry’s be testament to the blatant Refusal to administer
justice in this case for over 34 years Appendix. B thru Q.
15). On the 14th day of February 2020 petitioner filed another Mandamus action in the Ohio
Supreme Court setting forth and amplifying the same facts and violation as here. On March 5th 2020
Respondent filed to dismiss on adequate avenues grounds But also ’ conceding ’ [petitioner] used all
adequate avenues for relief but was unsuccessful. On May 13th 2020 the court still granted the same,
Appx. B. On May 19th 2020 petitioner filed reconsideration amplifying the issues not considered by
the court. The Court denied the same on July 21st 2020. Appendix C. Petitioner requested certiorari
and mandamus in this Court over the years Appendix R, S and T.
This petition follows.

Appendix B, The judgment under attack

8

REASONS FOR GRANTING THE PETITION
Exceptional Circumstances
16). The issue’s here goes beyond the clear Actual Innocence and Miscarriage of Justice. It’s the
judicial system (the states courts), Outright Illegal Use and Abuse of Power and Discretion

It’s

about perjury striking at the ‘core’ of are judicial system and the people’s safeguards against
governmental intrusion.
It’s about the states courts sanctioning such illegal abuse of power. It’s the states court’s
blatant and outright refusal to do it’s lawful duty and adjudicate the merits and administer justice
without denial or delay, were as here, law warrants. But most importantly; It’s about this Court
founding that ‘Abuse of Discretion or Judicial Usurpation of Power by the trial court constitutes
exceptional circumstance for which mandamus (Lie’s).’ Will v. United States, 389 U.S. 90, 95 (1967)
Kerr v. U.S. Dist. Court for Northern Dist of California, 96 S.Ct. 2119 (1967) . Schlaeenhauf v.
Holder. 379 U.S. 104, 111. Will vs. Calvert Fire Insurance Co. 437 U.S. 655, 662. 98 S. Ct. 2552
(1978) Both circumstances and acts are clear and indisputable in this case.**

17) .

Relief Cannot Be Obtained In Any Other Forum or From Any Other Court.

Particularly Why; Because the States Court’s has abused it power by closing the doors ofjustice
arbitrarily in the face of clear injustice, which is contrary to the law, and what this court in Mitchum
v. Foster. 407 U.S. 225, 240 (1972), proclaimed , “ throw open the doors of the United States courts
to those whose rights under the Constitution are denied or impaired.. Attempting to end decades of
abuse of power by the State’s lower courts, petitioner filed a motion pursuant to the State’s high court
rules, to declare Respondent and or his counsel, a frivolous litigator. In defense of said motion, the
State’s high court conceded Petitioner’s true claim adding ‘Emphasis deleted.’ and further the Court

9

finding what amount’s to ‘ It’s Not the Courts/Judge’s ‘Role’ to address the merits of petitioner's
claims. ’ Appx. P. paragraph #9. At all times the states courts has deliberately disregarding the injury
done to petitioner's and his rights under law.
When the doors of the United States Courts are as here, been willfully, maliciously, and
improperly closed to non-influential, self represented persons like your Black petitioner, and denied
any person justice is an abuse of decision . Anderson v. City ofBessemer City, N.C. 472 U.S. 564, 557
(1985). The State’s Courts refusal to perform its true adjudicator role & duty under law to address
and correct this should not be allowed to stand. The avenues of habeas corpus under State or Federal
Statute’s are not open to petitioner.
Mandamus appropriate where petitioner “ Lack adequate alternative means to obtain the relief
they seek,44 Mallard v. U.S Dist. Court for S. Dist. Of Iowa, 490 U.S. 296, 309 (1989).

18).

The Writ Will Be In Aid of the Court’s Appellate Jurisdiction
As set forth in paragraph 14 & 17. Having exhausted all avenues seeking relief before the

States courts, and the courts has gone rogue/abusing it’s discretion and powers. The All Writs Act, is
an established remedy to oblige inferior courts to do that justice which the constitution duty

and

office bound it to do. One of its [the writs] peculiar and more common uses is to restrain inferior
courts and to keep them within their lawful bounds. Here the “supervisory control of the [Lower]
Courts by [this court] is necessary to and for the proper use of power in the State Courts judicial
system. Because the states trial court has so far departed from the accepted and usual ’course of
judicial proceedings 4 and the states appellant and supreme courts has sanctioned such a departure by
the lower court, as to call for an exercise of this Court’s power.

/.6

19).

Clear Legal Right To Relief
As set forth in the proceeding body of this petition, petitioner’s rights has been violated

that fact is and has been clear and indisputable. It is also clear and indisputable the states courts has
failed in it’s duty owed to address the merits and administer justice for which the petitioner seeks.
The facts also prove petitioner’s ‘Actual Innocence’ and his State and Federal constitutional rights as
set out here ‘his clear legal right to the relief he seeks4.

20).

The Question’s Presented Are Unsettled.
The question’s presented has not been but needs answering. That all citizens-now more then

ever will rest assured such acts will neither be tolerated nor allowed to fester in the system.

21)

Tyrannical Act’s by the States Courts Must Not Be Allowed To Stand
It is and has been clear and indisputable a wrong has been committed. But the states courts

are banking on will never have it’s day in court, that amounts to a form of tyranny.

** This Court stated; “Mandamus is available where there is a clear and indisputable abuse of
discretion or usurpation of judicial power by the trial court. ’ The remedy of mandamus is a drastic
one, to be invoked only in extraordinary situations...only exceptional circumstances amounting to a
judicial ‘usurpation of power’ will justify the invocation of this extraordinary remedy.’ Will, Kerr and
Will Schlagenhauf supra.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully Submitted

Date: /0 /

/A

,2020

